OFFICE OF INSPECTOR GENERAL

AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION
THRESHOLD PROGRAM
ADMINISTERED BY
USAID/PARAGUAY
AUDIT REPORT NO. 1-526-09-010-P
SEPTEMBER 2, 2009




SAN SALVADOR, EL SALVADOR
Office of Inspector General




September 2, 2009

MEMORANDUM

TO:              USAID/Paraguay Mission Director, Rose Rakas

FROM:            Regional Inspector General/San Salvador, Catherine Trujillo /s/

SUBJECT:         Audit of the Millennium Challenge Corporation Threshold Program
                 Administered by USAID/Paraguay (Report No. 1-526-09-010-P)


This memorandum transmits our final report on the subject audit. We have carefully
considered your comments on the draft report in finalizing the audit report and have
included your response in appendix II of the report.

The report contains eight recommendations intended to improve the effectiveness and
implementation of the Millennium Challenge Corporation’s threshold program
administered by USAID/Paraguay. Final action has been taken on recommendation no.
2, while a management decision has been reached on the remaining recommendations
(nos. 1, and 3-8). Determination of final action will be made by the Audit Performance
and Compliance Division upon completion of the planned corrective actions.

I want to express my appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel (503) 2501-2999 - Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 6

Did Millennium Challenge Corporation and USAID-financed anticorruption
activities in Paraguay achieve planned results and what has been the
impact?

     Four Program Components Achieved
     Only Limited Results ................................................................................................... 8

     Customs and Border Enforcement Activities
     Need to Focus More Heavily on Ciudad del Este ..................................................... 10

     Some Additional Program Impacts
     Need to be Tracked................................................................................................... 11

     Patrol Boats Purchased Under the Program
     Are Not Being Used .................................................................................................. 13

     A Security Assessment of the Identification and Passport
     System Is Needed..................................................................................................... 14

Evaluation of Management Comments ....................................................................... 16

Appendix I – Scope and Methodology ........................................................................ 17

Appendix II – Management Comments ....................................................................... 19
SUMMARY OF RESULTS
To help Paraguay meet a criterion for control of corruption, which would make Paraguay
competitive for expanded funding from the Millennium Challenge Corporation (MCC), the
MCC approved a two-year threshold program in February 2006 to help Paraguay fight
corruption. The program has been extended to May 30, 2009. Totaling $34.6 million,
the program was to focus on reducing impunity for corrupt practices in the public sector
and informal economic activity. As of February 2009, $34.6 million has been obligated
and $28.7 million has been spent. Aside from the Government of Paraguay (GOP), the
main implementing partners were Casals & Associates ($21.7 million contract),
Chemonics International, Inc. ($10.2 million contract), and the Department of Treasury
($1.9 million agreement) (pages 3-4).

The Regional Inspector General/San Salvador performed this audit to determine whether
the Millennium Challenge Corporation threshold program administered by
USAID/Paraguay achieved planned results and to assess the program’s impact (page
4).

Based on the most current information available from the World Bank, the program did
not achieve its overall goal of enabling Paraguay to exceed the median score on the
World Bank’s “control of corruption” indicator for low income countries and thus become
eligible for assistance through a compact with the MCC. However, the program was
successful in reducing informal economic activity and was partially successful in
reducing impunity. Due to the progress achieved, MCC has agreed to a second
threshold program, estimated to be over $30 million, to build upon the progress made in
the initial program (page 6).

More specifically, the program achieved planned results related to (1) average time
required to process complaints, (2) reduction of value-added tax evasion rate, (3) value
of seized merchandise for alleged infringement of customs regulations, (4) corruption
cases properly submitted to the Public Ministry, (5) number of days to start a business,
and (6) number of maquila 1 enterprises established. The program partially achieved
planned results related to the number of cases investigated using the forensics
laboratory, number of government institutions implementing new standards for internal
control, and number of government institutions exchanging public registry data. The
program was not successful in increasing the number of government institutions subject
to oversight by the Congress (page 6).

To increase the likelihood of reaching MCC compact eligibility, USAID/Paraguay needs
to (1) coordinate with implementing partners and the GOP to establish an action plan to
complete certain activities (page 8), (2) focus custom and border enforcement activities
more closely on Ciudad del Este, which is thought to be the center of smuggling activity
in Paraguay (page 10), (3) include indicators under the new program showing more
impact toward the MCC score cards (page 11), (4) work with the parties involved so that
boats procured for the GOP are functional and being utilized (page 13), and (5) schedule
a security system evaluation for the identification and passport system (page 14).

1
    A maquila is a manufacturing or assembly plant that imports components free of customs duties
    and then exports the finished products.


                                                                                               1
This report recommends that USAID/Paraguay:

•   In coordination with the implementing partner and the GOP, establish an action plan
    with benchmarks and timeframes to assess the capabilities of staff in the forensics
    laboratory and provide necessary training, complete the implementation of
    strengthened internal controls in five ministries, and implement an online interface for
    public registry information (page 10).

•   Include a clause in the agreement for the second threshold program that would allow
    it to recover any expenditures that are wasted as a result of failure of the
    Government of Paraguay to fulfill its obligations under the agreement (page 10).

•   Focus border and customs control activities during the follow-on program on Ciudad
    del Este (page 11).

•   In coordination with its implementing partners, establish procedures to track statistics
    on outcomes related to complaints of judicial misconduct, customs law enforcement
    actions, and tax and customs evasion cases (page 12).

•   In coordination with DETAVE, verify that all maintenance issues and/or
    manufacturing defects have been resolved to put the 10 idle boats costing $357,320
    in operation (page 14).

•   Ensure that DETAVE develops and implements an action plan for maintaining and
    using the boats (page 14).

•   Formalize a procedure to conduct periodic end-use checks for commodities
    purchased under the program (page 14).

•   In coordination with its partners, budget for and schedule an independent security
    assessment of the identification and passport system as soon as possible (page 15).

USAID/Paraguay agreed to implement the recommendations and has developed specific
plans to address them. Final action has been taken on recommendation no. 2, while a
management decision has been reached on the remaining eight recommendations (nos. 1,
and 3-8). Our evaluation of management comments is provided in the Evaluation of
Management Comments section of this report (page 16), and USAID/Paraguay’s
comments in their entirety are included in appendix II.




                                                                                          2
BACKGROUND
Paraguay meets all of the eligibility requirements to receive assistance through a
compact with the Millennium Challenge Corporation (MCC) except for the criterion for
control of corruption. To meet the criterion, Paraguay must score above the median for
low-income countries on the World Bank’s control of corruption indicator. Figure 1 shows
Paraguay’s scores on the control of corruption indicator since 2002.

Graph 1: Paraguay’s Percentile Ranking on the World Bank’s Control of
Corruption Indicator, 2002-2007 (Latest Information Available) 2


                                    Paraguay's Percentile Ranking
                                        Control of Corruption


     100%

      90%

      80%

      70%

      60%                                     Median level

      50%

      40%

      30%

      20%

      10%

       0%
         2001         2002        2003        2004        2005         2006        2007        2008


To help the Government of Paraguay (GOP) fight corruption, USAID and the GOP
signed the Millennium Challenge Account threshold program strategic objective grant
agreement (SOAG) for Paraguay in May 2006. This program, totaling $34.6 million, was
originally expected to end November 30, 2008, but has since been extended to May 30,

2
    The standard errors for 2002, 2004, 2005, 2006, and 2007 were plus or minus 1.4, 4.8, 2.6, 4.5,
    and 4.6 percent, respectively. There is roughly a 70 percent chance that Paraguay’s percentile
    ranking for the level of corruption lies within plus or minus the stated standard errors. For
    example, with a standard error of 4.6 for 2007, there is a 70 percent probability that Paraguay’s
    percentile ranking for the level of corruption was between 28.4 and 37.6 percent (33 percent
    plus or minus 4.6 percent).



                                                                                                   3
2009. As of February 2009, $34.6 million had been obligated and $28.7 million had
been spent. Another extension until August 2009 is anticipated in order to complete the
implementation of a national identification card and passport system. The program
includes 10 components. Components 1 through 5 focus on reducing impunity by
implementing effective sanctions for corrupt practices. Components 6 through 10 focus
on reducing informal economic activity by improving tax and customs enforcement and
improving the investment climate. Although this is an MCC program with MCC funding,
USAID/Paraguay has been given responsibility for administering and monitoring the
implementation of the program.

USAID/Paraguay’s Threshold program works with 28 GOP institutions ranging from the
Public Ministry (prosecutor’s office) to the Ministry of Finance. Other main implementing
partners include the following:

•   Casals & Associates – Casals was awarded a $21.7 million contract from the period
    May 2006 to April 2009. Casals was responsible for implementing Components 1-5
    related to reducing impunity.

•   Chemonics International, Inc. – Chemonics was awarded a $10.2 million contract from
    the period May 2006 to February 2009. Chemonics was responsible for implementing
    Components 6, 7, 9, and 10 related to reducing informal economic activity and the
    acquisition of goods for component 8.

•   U.S. Department of Treasury – The Office of Technical Assistance was awarded a $1.9
    million agreement for the period September 2006 to March 2009. A technical advisor
    provided technical assistance on Component 8, which focused on strengthening GOP
    investigation units for corruption, customs fraud, and tax fraud and evasion.

The MCC has consented to a second threshold program that will build on progress
achieved during the initial program by targeting improved performance on the World Bank’s
control of corruption and rule of law indicators. The $30.3 million program, not yet signed,
will focus on anti-corruption efforts in law enforcement, customs, and the healthcare and
judicial sectors.

AUDIT OBJECTIVE
As part of its FY 2009 audit plan, the Regional Inspector General/San Salvador
performed an audit of USAID/Paraguay’s Millennium Challenge Corporation Threshold
Anti-Corruption Activities to answer the following question:

•   Did the Millennium Challenge Corporation threshold program administered by
    USAID/Paraguay achieve planned results and what has been the impact?

The audit scope and methodology are presented in appendix I.




                                                                                          4
Source: U.S. Central Intelligence Agency




                                           5
AUDIT FINDINGS
Based on the most current information available from the World Bank, the program did
not achieve its overall goal of enabling Paraguay to exceed the median score on the
World Bank’s “control of corruption” indicator for low income countries and thus become
eligible for assistance through a compact with the MCC. However, the program was
successful in reducing informal economic activity and was partially successful in
reducing impunity. Due to the progress achieved, MCC has agreed to a second
threshold program to build on the progress made during the initial program.

More specifically, the program helped reduce informal economic activity by reducing
value-added tax (VAT) evasion, seizing merchandise that was allegedly smuggled into
Paraguay, reducing the number of days required to start a business, increasing the
number of corruption cases presented to the Public Ministry for prosecution, and helping
to establish new maquila enterprises. 3 The program helped reduce impunity by reducing
the time required to process complaints against judges, and more limited progress has
been toward strengthening internal controls in five GOP ministries. In addition, with
program support, a USAID contractor is in the process of implementing an automated
system for issuing national identity cards and passports, which should reduce
opportunities for producing fraudulent documents and make it easier for government
institutions investigating crimes to exchange information online. Some other program
accomplishments are discussed in Table 1, which compares planned results with actual
accomplishments as of November 2008, the original planned completion date for the
program.

Table 1: Main Indicators for the Two-Year Threshold Program

           Component Goal                         Indicator               November      November
                                                                         2008 Target   2008 Result
    1. Increase the investigative       Number of cases                      10             0
    capability of the Public Ministry   investigated by newly
                                        trained personnel using the
                                        forensics laboratory
    2. Increase the capability of the   Average time required to          4 months      4 months
    judiciary disciplinary system       process complaints related
                                        to disciplinary cases
    3. Strengthen internal control      Number of government                 5         5 in process
    systems                             institutions implementing                       of meeting
                                        new standards for internal                         target
                                        control
    4. Strengthen oversight of the      Number of government                 3         3 in process
    public registry to safeguard the    institutions exchanging                         of meeting
    integrity of public records         public registry data online                        target
    5. Increase transparency and        Number of government                 5               0
    effectiveness of public finance     institutions subject to budget
    legislative oversight               execution oversight by the
                                        Congress

3
    Maquilas are manufacturing or assembly plants that import components free of customs duties
    and then export the finished products while only paying duties on the value-added (value of the
    finished product less the cost of the imported components).


                                                                                                      6
          Component Goal                        Indicator              November        November
                                                                      2008 Target     2008 Result
    6. Increase operational            Reduce VAT evasion rate           51%             51%
    efficiency and transparency of
    government tax authority
    7. Strengthen border and           Value of seized                 $6.5 million   $6.7 million
    customs controls                   merchandise on goods for
                                       alleged infringement of
                                       customs regulations
    8. Increase the Ministry of        Corruption cases properly           13             143
    Finance’s internal investigation   submitted to the Public
    capabilities                       Ministry
    9. Design and implement one-       Average number of days              36              25
    stop shops and call centers to     spent to start a business
    facilitate the legal
    establishment of new
    businesses
    10. Promote investment in          Number of maquila                   15              31
    maquilas                           enterprises established

As shown in the table above, USAID/Paraguay, along with its implementing partners and
the GOP, achieved some important results and impacts as follows:

•     The program was able to dramatically reduce the number of days to start a business
      from 74 days to 25 days. The program also assisted the GOP to establish a one-
      stop shop for registering a business, which reduced the number of procedures from
      17 to 7. In addition to reducing the administrative burden on entrepreneurs, this
      reduces opportunities for bribery and petty corruption. According to a report by the
      World Bank, Paraguay improved from a “starting a business” rank of 135 in 2007 to a
      rank of 66 in 2008. Making it easier to start a business helps improve Paraguay’s
      investment climate.

•      The program assisted 31 entrepreneurs to formally set up maquila enterprises in
       Paraguay. These enterprises created formal jobs tied to export markets and helped
       encourage additional investment in the country.




                                                                 This maquila in Ciudad del Este
                                                                 exported blankets and comforters to
                                                                 Brazil.  Photo taken by a RIG/San
                                                                 Salvador auditor on March 13, 2009.


•     The program assisted in reducing the percentage of businesses evading the


                                                                                                     7
    collection and payment of the value added tax, and thus, helps formalize the
    economy and brings about more equitable sharing of the tax burden.

•   USAID/Paraguay and its partners demonstrated success in strengthening border and
    customs controls by helping the GOP increase seizures of goods for alleged
    infringement of customs regulations. (However, the impact of this component can be
    increased by focusing more closely on Ciudad del Este, thought to be the center of
    smuggling activity in Paraguay, during the planned follow-on threshold program; see
    page 10).




                                                           Wine seized near the Asuncion
                                                           border with Argentina from an
                                                           importer    that    was    allegedly
                                                           attempting to evade custom duties.
                                                           Photo taken by a RIG/San Salvador
                                                           auditor on March 17, 2009.


The program has not been successful in increasing the number of cases investigated by
a new forensics laboratory, although USAID/Paraguay and its partner have equipped the
laboratory, nor has it achieved success in increasing legislative oversight over executive
branch institutions. In addition, as USAID/Paraguay moves toward initiating a new two-
year threshold program, there are opportunities to strengthen program impacts and
better measure progress under the follow-on program. These issues are discussed in
the following sections.

Four Program Components
Achieved Only Limited Results
Summary: The program did not achieve certain planned results, primarily due to lack of
focus, priority, or political will on the part of certain GOP counterparts. These planned
results were related to the forensics laboratory, implementing stronger internal controls
in government institutions, exchanging identification and other public registry information
online, and strengthening oversight by the Congress over government institutions. All of
these planned results were meant to reduce impunity regarding corruption. As of
February 2009, $12.2 million has been spent on these four components. The
implementation problems experienced under the program made the program less
effective in helping Paraguay strengthen its performance on the World Bank’s control of
corruption indicator and thus become eligible for MCC compact assistance.

The program did not achieve four planned results as discussed below:

•   Under Component 1 (increasing the investigative capability of the Public Ministry) the
    forensics laboratory was not yet functioning. USAID/Paraguay and its partner had


                                                                                             8
      coordinated their planned assistance to the forensics laboratory through discussions
      with an attorney general in the previous presidential administration that left office in
      September 2005. However, we were told that when he left and was replaced by a
      second attorney general, also during the previous administration, the focus of getting
      the laboratory operational suffered because of other priorities. To date, USAID’s
      partner has installed laboratory equipment and trained laboratory personnel.
      However, the implementing partner related that some laboratory staff may not have
      the basic skills required to benefit from the new equipment and training, and may not
      be able to effectively investigate cases using forensic techniques. An October 2008
      assessment of the laboratory recommended that the technical competence of each
      member of the forensic lab staff be evaluated, and that specific training on forensic
      applications be given. As a result of these challenges, no cases have yet been
      investigated as of March 2009 using the forensics laboratory.




                                                                 Forensics      laboratory     equipment
                                                                 provided by the program and recently
                                                                 installed in the laboratory in Asuncion,
                                                                 but not yet used. Photo taken by a
                                                                 RIG/San Salvador auditor on March
                                                                 18, 2009.


•     Component 3 (strengthening internal control systems in GOP ministries) was
      delayed because the previous administration did not issue a required Presidential
      decree that would mandate the process to be followed by GOP ministries to evaluate
      their business processes and, ultimately implement stronger internal controls.
      USAID/Paraguay issued a temporary stop work order in September 2007, but then
      partially lifted it in November 2007 when the GOP promised to issue the decree.
      However, we were told that the decree that was issued was too vague to be of use.
      Finally, after a change in administration in August 2008, a satisfactory decree was
      issued. Currently five ministries are following the process to evaluate and strengthen
      their internal controls but none of them have completed the process.

•     Under Component 4 (strengthening oversight of the public registry to safeguard the
      integrity of public records), a major activity involves procurement and installation of
      an automated national identity card and passport system. Implementation was
      delayed by misconduct on the part of GOP officials during the procurement. 4 After

4
    Details are available in the OIG’s “Audit of the Procurement Process for a National Identification
    Card and Passport System Financed by the Millennium Challenge Corporation and Monitored
    by USAID/Paraguay” (audit report number 1-526-08-005-P, June 27, 2008).



                                                                                                       9
     the misconduct was discovered, the previous administration declined to accept the
     decisions made by USAID/Paraguay’s contractor and little was accomplished until a
     new administration took office. The new administration is still organizing itself and
     has not yet reached consensus on the need to establish an online interface for public
     registry data (e.g., national identification card information and motor vehicle
     registration information), a main goal for this component, but they have agreed to the
     procurement and installation of an automated national identity card and passport
     system.

 •   USAID/Paraguay issued a stop work order for component 5 (increasing legislative
     oversight) in February 2007 due to the lack of political will of Congress to implement
     the activity. As of February 2009, the implementing partner had spent a total of
     $340,764 on this activity, primarily for technical assistance and training to the
     Congress. USAID/Paraguay reallocated the remaining budget of about $1.2 million
     to other activities.

The problems experienced on these program components impeded the program’s
effectiveness in reducing impunity and helping improve Paraguay’s score on the World
Bank’s control of corruption indicator. Moreover, where the GOP did not meet its
commitments to carry out activities that the GOP itself had requested – as with the
legislative oversight activities under Component 5 – MCC resources were spent with little
effect. USAID/Paraguay needs to ensure that planned benefits under the current program
are achieved to the extent possible, and it needs to better protect itself under the follow-
on program against the possibility that changes in political will or priorities might lead to
unproductive expenditures of MCC resources.

     Recommendation No. 1: We recommend that USAID/Paraguay, in coordination
     with the implementing partner and the Government of Paraguay, establish an
     action plan with benchmarks and timeframes to assess the capabilities of staff in
     the forensics laboratory and provide necessary training, complete the
     implementation of strengthened internal controls in five ministries, and implement
     an online interface for public registry information.

     Recommendation No. 2: We recommend that USAID/Paraguay include a clause
     in the agreement for the second threshold program that would allow it to recover
     any expenditures that are wasted as a result of failure of the Government of
     Paraguay to fulfill its obligations under the agreement.

 Customs and Border Enforcement Activities
 Need to Focus More Heavily on Ciudad del Este
 Summary: It is widely acknowledged that Ciudad del Este is the center for smuggling
 activities in Paraguay. However, the threshold program focused instead on customs
 enforcement activities in Asuncion, where the headquarters of the customs department
 are located, because USAID/Paraguay and its partner did not think that they had
 sufficient resources to confront the more powerful interests centered in Ciudad del Este.
 While this perspective is, at the least, defensible, we think it is likely that the decision not
 to focus on Ciudad del Este limited the program’s potential to achieve the kind of
 transformational results that would have helped Paraguay meet the control of corruption
 criterion and thus qualify for MCC compact assistance.


                                                                                              10
Ciudad del Este, located on the Paraná River which adjoins both Brazil and Argentina, is
thought to be the most important center for smuggling activities in Paraguay. For
example, the Economist Intelligence Unit 2008 Country Profile for Paraguay states that
Ciudad del Este is Paraguay’s smuggling center for smuggled goods on the border with
Brazil and Argentina. It seems unlikely that the GOP could very dramatically improve
customs enforcement without focusing at some point on Ciudad del Este.

However, program activities to strengthen border and customs control focused on
headquarters operations in Asuncion, and only $598,974 (9 percent) of the $6.7 million
in illicit merchandise seized under the program was seized in Ciudad del Este. The
decision to focus, at least at first, on Asuncion is understandable, given that efforts to
reform government institutions are often begun at the headquarters level and later
expanded to regional and local levels. It should also be noted that Asuncion borders
Argentina, so there are real customs enforcement concerns in Asuncion. Moreover,
program officials stated that insufficient resources were available to take on the powerful
interests that operate in Ciudad del Este.

Still, based on discussions with officials of a GOP anti-contraband unit and a U.S.
Department of Treasury official, it is our opinion that the decision not to focus on Ciudad
del Este limited the program’s potential to achieve the kind of dramatic, highly visible
results that would change corruption perceptions enough to increase Paraguay’s score
on the control of corruption above the median for low-income countries and thus enable
Paraguay to become eligible for MCC compact assistance.

USAID/Paraguay envisions a more robust effort that will focus more heavily on Ciudad
del Este during the upcoming threshold 2 program. However, these plans have not been
finalized.

    Recommendation No. 3: We recommend that USAID/Paraguay focus border
    and customs control activities during the follow-on program on Ciudad del Este.

Some Additional Program
Impacts Need to Be Tracked
Summary: At the highest level, the threshold program has a very clear indicator of
success: MCC compact eligibility. Most of the program components also had
satisfactory measures of program impact, but in a few cases, tracking additional
statistics on outcomes would help USAID/Paraguay measure the impact of activities
carried out under individual program components.

The overall goal of the threshold program is to reduce impunity and informal economic
activity, leading to MCC compact eligibility. The goal of achieving MCC compact
eligibility provides a very clear indicator of program success at the highest level. Most of
the program components also had satisfactory measures of program impact, but in three
cases we think it would be valuable for USAID/Paraguay to track additional statistics to
monitor the program’s impact:

•   The goal of Component 2 was to increase the capability of the judiciary disciplinary
    system and the associated performance indicator is the average time required to


                                                                                         11
    process complaints related to disciplinary cases. This indicator measured the speed
    of the disciplinary process, which is valuable information, but USAID/Paraguay was
    not tracking the outcomes of cases (i.e., the numbers of cases where no wrongdoing
    was found, the number that led to disciplinary action, and so on).

•   The goal of Component 7 was to strengthen border and customs controls and the
    associated performance indicator is the value of merchandise that is seized for
    alleged infringement of customs regulations. Again, this is valuable information, but
    presumably USAID/Paraguay and its partners are also concerned about the final
    disposition of seized merchandise and any associated criminal or civil cases (i.e.,
    duties and fines paid, criminal penalties assessed, amounts of merchandise released
    back to importers, etc.). A U.S. Department of Treasury official stated that, without
    these and similar statistics, it is difficult to judge how increased seizures of
    merchandise relate to improved compliance with customs laws and regulations.

•   The goal of Component 8 was to increase the Ministry of Finance’s internal
    investigation capabilities and the associated performance indicator tracks the
    number of tax and customs evasion cases properly submitted to the Public Ministry.
    As in the previous examples, this is valuable information but the outcome of the
    cases (e.g., cases where an indictment is filed, cases dismissed, cases with
    convictions, etc.) is probably of even greater interest, even though the program does
    not finance any activities that would influence the disposition of cases within the
    Public Ministry or the court system.

Note that for all of these cases, we are not advocating that formal indicators or
performance targets be established for outcomes. Instead, we are simply advocating
that USAID/Paraguay compile statistics on the outcomes.

USAID/Paraguay and its implementing partners used program indicators that measured
outcomes that could be significantly influenced by program activities and for which
performance targets could be set. This is a sound approach, but, given the overall
program goal of helping Paraguay become eligible for MCC compact assistance,
tracking statistics on the intermediate outcomes outlined above will likely help.

    Recommendation No. 4: We recommend that USAID/Paraguay, in coordination
    with its implementing partners establish procedures to track statistics on
    outcomes related to complaints of judicial misconduct, customs law enforcement
    actions, and tax and customs evasions cases.




                                                                                      12
Patrol Boats Purchased Under
the Program Are Not Being Used
Summary: Twelve boats, costing $414,704, were procured under the program to help
the GOP strengthen border control and customs enforcement. However, four of these
boats were in the shop, two were not properly working, and four were not being used.
GOP officials stated that one of the boats had leaks in the fuel tank and structural
problems, and they were concerned that other boats had similar problems. We were
told that the boats were idle because DETAVE did not have personnel to operate them
and because DETAVE did not have a plan for maintaining the boats. As a result, as of
March 2009, 10 boats costing $357,320 were not being used. This impairs the GOP’s
ability to enforce border and customs regulations.

Under Component 7, 12 boats costing $414,704 were procured under the program to
help the GOP strengthen border control and customs enforcement. These boats were
given to a special unit of the GOP called DETAVE, an anti-contraband unit with border
patrol and customs enforcement responsibilities. Although Paraguay is a landlocked
country, Paraguay has river borders with Argentina and Brazil. DETAVE did not have its
own boats previously and the boats were to provide DETAVE with its own surveillance
capability along these river borders. Six boats were delivered to DETAVE in April 2008,
and the remaining six boats were delivered in December 2008. The boats were
purchased from a local manufacturer.




                                                                Four of the 12 boats purchased
                                                                under the program in Asuncion. The
                                                                program purchased four large boats
                                                                (depicted here) and eight smaller
                                                                boats. Photo taken by a RIG/San
                                                                Salvador auditor on March 17, 2009.


As of March 2009, 10 of the 12 boats were either in the shop for maintenance, not
properly working, or not being used. (Four of these boats were in the shop, two were not
properly working, and four were not being used.) GOP officials stated that one of the
boats had leaks in the fuel tank as well as structural problems, and they were concerned
that five other boats not yet used had similar problems. 5 During our visit we confirmed

5
    GOP officials were of the opinion that many of these issues were due to manufacturing defects,
    while the manufacturer maintains that the problems occurred because the boats were kept idle
    for long periods of time and were not properly maintained.


                                                                                                13
that fuel was leaking from one of the motors. Some of these issues were not discovered
immediately because the six boats received in December 2008 were immediately
returned to the manufacturer because DETAVE did not have dock space for the boats.




                                                        Fuel leaking from a motor on a boat in
                                                        Asuncion. Photo taken by a RIG/San
                                                        Salvador auditor on March 26, 2009.


There were several reasons why the boats were idle. First, we were told that DETAVE
had high personnel turnover and personnel shortages. Second, DETAVE does not have
a maintenance plan for the boats. Third, had the mission followed USAID policy, Section
324.5.6 of the Automated Directives System which states that USAID shall carry out, or
arrange to have carried out, end-use checks on commodities, the issue of the idle boats
could have been detected in a timelier manner. While this section mentions that it is not
necessary that every commodity be checked, given that the boats are high-value items
and 12 boats were purchased, it would have been advisable for USAID/Paraguay to
have conducted end-use checks on at least some of the boats.

As a consequence, 10 boats purchased under the program at a cost of $357,320 remain
idle, impeding the GOP’s ability to enforce border and customs regulations.

   Recommendation No. 5: We recommend that USAID/Paraguay, in coordination
   with DETAVE, verify that all maintenance issues and/or manufacturing defects
   have been resolved to put the 10 idle boats costing $357,320 in operation.

   Recommendation No. 6: We recommend that USAID/Paraguay ensure that
   DETAVE develops and implements an action plan for maintaining and using the
   boats.

   Recommendation No. 7: We recommend that USAID/Paraguay formalize a
   procedure to conduct periodic end-use checks for commodities purchased under
   the program.




                                                                                           14
A Security Assessment of the Identification
and Passport System Is Needed
Summary: Best practices dictate that security assessments should be performed of
information systems to determine the adequacy of security controls. The threshold
program is financing an automated identification and passport system with a target date
for completion of August 2009. However, no security assessment of the system has
been done and there are no plans or funds budgeted to conduct an assessment of this
system because program personnel have focused on the immediate task of developing
the system rather than on conducting or planning for security assessments of the
system. It is important to perform a security assessment as soon as possible to limit the
consequences of any security vulnerabilities.

Best practices require that critical information systems be assessed to ensure that
adequate security controls are in place. For example, the National Institute of Standards
and Technology’s (NIST) publication Special Publication 800-53, entitled
“Recommended Security Controls,” revised in December 2007, indicates that
government organizations should conduct an assessment of the security controls over
information systems at least annually to determine the extent to which the controls are
implemented correctly, operating as intended, and producing the desired outcome with
respect to information security. 6 USAID/Paraguay’s information technology specialist
acknowledges that such assessments are needed.

This system being developed under Component 4 at an estimated cost of $5.4 million is
intended to strengthen the registration and identification of persons and to maintain a
more reliable system of personal identification and passport system. The company
developing the system has a target completion date of August 2009. Currently, no
security assessment of the system has been done and there are no plans or funds
budgeted to conduct a security assessment of this important system.

No such plans have been developed because to date the focus has been on completing
development of the system.

Given the critical nature of the personal identification information to be stored in the
system and the need to protect the system against manipulation and issuance of
fraudulent identification documents, it is important to conduct a security assessment of
the system as soon as possible. Identifying any security control weaknesses early on
will help limit the consequences of any vulnerabilities.

      Recommendation No. 8: We recommend that USAID/Paraguay, in coordination
      with its partners, budget for and schedule an independent security assessment of
      the identification and passport system as soon as possible.




6
    This publication is not binding on the GOP but is cited as an example of best practices.


                                                                                               15
                                                                          APPENDIX I


EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Paraguay agreed to each of the eight audit
recommendations. Furthermore, the mission has or intends to develop specific plans to
implement each recommendation. On the basis of an evaluation of the mission’s
response to the draft report, this audit determined that final action has been taken on
recommendation no. 2, while a management decision has been reached on the
remaining recommendations (nos. 1, and 3-8). Determination of final action will be
made by the Audit Performance and Compliance Division upon completion of the
planned corrective actions.

Mission comments in their entirety are presented in appendix II.




                                                                                    16
                                                                             APPENDIX II


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards to determine if the
Millennium Challenge Corporation (MCC) threshold program administered by
USAID/Paraguay achieved planned results and to assess the program’s impact. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Audit fieldwork was
conducted at USAID/Paraguay from March 9 through March 27, 2009. The audit primarily
covered the period from May 31, 2006, through November 30, 2008.

In planning and performing the audit, we assessed the effectiveness of management
controls related to the MCC threshold program.          Specifically, we obtained an
understanding and evaluated (1) the strategic objective grant agreement (SOAG) and
subsequent implementation letters, (2) USAID/Paraguay’s Federal Managers’ Financial
Integrity Act of 1982 assessment, (3) oversight and monitoring performed by
USAID/Paraguay officials, (4) performance measures, and (5) reports on actual program
results. We also conducted interviews with key USAID/Paraguay personnel, the main
implementing partners, Government of Paraguay (GOP) officials, and beneficiaries. We
conducted the audit at USAID/Paraguay, located in Asuncion, Paraguay, visited
implementing partners and beneficiaries located in Asuncion, and conducted site visits in
Asuncion and Ciudad del Este.

Methodology
To answer the audit objective, we reviewed the SOAG and subsequent implementation
letters for planned results. We also reviewed quarterly reports for actual results reported
for the ten components of the program.

We validated performance results reported by USAID/Paraguay by comparing reported
results to source documentation, physical observations during our field visits and
interviews, and other available sources of information.

We reviewed applicable laws and regulations, agreements, and USAID policies and
procedures pertaining to the threshold program and USAID including the following:
USAID/Paraguay’s Federal Managers’ Financial Integrity Act of 1982 assessment; the
National Institute of Standards and Technology’s publication on Recommended Security
Controls for Federal Information Systems; the SOAG and subsequent implementation
letters implementing partners’ contracts; and Automated Directives System Chapter 324
titled “Post Procurement.”

We interviewed USAID/Paraguay officials, a U.S. Department of Treasury official, a U.S.
Department of Justice official, the main implementing partners, GOP officials, and
businessmen to determine progress toward achieving intended results. We conducted



                                                                                        17
                                                                         APPENDIX II
site visits to the main warehouse in Asuncion for seized goods for alleged infringement
of customs regulations. We also conducted site visits to see 6 of 12 boats purchased
under the program and cross checked serial numbers from an inventory list against
those on the boats. We performed similar steps for 3 of the 20 vehicles purchased
under the program. Finally, we visited 4 of 31 maquila enterprises assisted under the
program.




                                                                                    18
                                                                            APPENDIX III


MANAGEMENT COMMENTS
                                                                    June 29, 2009


TO:             Timothy Cox, Regional Inspector General/San Salvador

FROM:           Robert Kahn, Acting USAID/Paraguay Mission Director

SUBJECT:        Comments on the Draft Report of the Audit of the Millennium Challenge
                Corporation Threshold Program Administered by USAID/Paraguay
                (Report No. 1-526-09-00X-P)


Dear Mr. Cox:

Thank you for the opportunity to respond to audit Report No. 1-526-09-00X-P entitled
“Audit of the Millennium Challenge Corporation Threshold Program”. We have reviewed
the audit carefully, and would like to make the following comments:

   Recommendation No. 1: We recommend that USAID/Paraguay, in coordination
   with the implementing partner and the Government of Paraguay, establish an
   action plan with benchmarks and timeframes to assess the capabilities of staff in
   the forensics laboratory and provide necessary training, complete the
   implementation of strengthened internal controls in five ministries, and implement
   an online interface for public registry information.

We concur with the recommendation.

Regarding the forensics laboratory, USAID/Paraguay in conjunction with the
Government of Paraguay (GOP) has included in Threshold Program (TCP) phase II
an extensive implementation, training, support and sustainability plan, which will be
implemented once TCP II activities are initiated. The timeframe for completion is
October 30, 2011.

There is a subcomponent in TCP II aimed at promoting and extending the gradual use of
the Standardized Model for Internal Control (SMIC). With Threshold Program
assistance, the GOP Controller’s Office will develop and put into place a plan for the
gradual implementation of SMIC. This plan will be developed jointly with the
participating institutions and in coordination with the General Audit Office of the
Executive Branch of the GOP. This TCP II subcomponent will engage institutions that
have not yet incorporated the SMIC, as well as provide support to the five ministries that
took part in TCP I in order to sustain full SMIC implementation in those institutions. The
timeframe for completion is October 30, 2011.

For the online interface among the Public Registries to be fully implemented, each of the
4 Registries, as well as the Public Ministry and the Ministry of Interior within the GOP
need to come to an agreement on:1) Which institutions will be the beneficiaries of the
system and, 2) Which public office will have the responsibility to administer that system.
                                                                               APPENDIX III
This lack of agreement within the GOP was the primary reason for this activity not being
completed during TCP I, and continues to exist in the current administration.

However, USAID/Paraguay supports in concept the recommendation, “…that
USAID/Paraguay, in coordination with the implementing partner and the GOP, establish
an action plan with benchmarks and time frames…” to implement the online interface.

TCP I activities for this subcomponent terminated in November 2008. Therefore, there is
not an implementing partner with whom USAID/Paraguay and the GOP could
coordinate.

Notwithstanding this reality, USAID/Paraguay will encourage the appropriate public
offices and Ministries to reach consensus on the items mentioned above.
USAID/Paraguay will follow-on and assist the GOP in the articulation of an action plan
for the implementation of this online interface. The timeframe for completion is October
30, 2011.

   Recommendation No. 2: We recommend that USAID/Paraguay include a clause
   in the agreement for the second threshold program that would allow it to recover
   any expenditures that are wasted as a result of failure of the Government of
   Paraguay to fulfill its obligations under the agreement.

We concur with the recommendation.

An extensive and self-explanatory provision on recovering wasted expenditures is
included in Annex 2 – Section E.2 Refunds of the SOAG signed between the GOP
and the USG on April 13, 2009. A PDF version of the signed agreement is attached
to this memorandum.

   Recommendation No. 3: We recommend that USAID/Paraguay focus border and
   customs control activities during the follow-on program on Ciudad del Este.

We concur with the recommendation.

Even though Customs seizures in the Ciudad del Este area (Alto Parana
Department) represented approximately 25% of total seizures nationwide during TCP
I, in TCP II a stronger border control program will be implemented in this area. A
regional base for DETAVE will be established in Ciudad del Este and will become the
most important regional customs base in the country. Customs also will focus on
other control mechanisms, such as a posteriori controls on imports, audits of foreign
trade operators, etc. The timeframe for completion is October 30, 2011.

   Recommendation No. 4: We recommend that USAID/Paraguay, in coordination with
   its implementing partners establish procedures to track statistics on outcomes
   related to complaints of judicial misconduct, customs law enforcement actions, and
   tax and customs evasions cases.

We concur with the recommendation.

Procedures to track the statistical outcomes of judicial misconduct are included in
TCP II as part of an extensive follow up to strengthen activities in this area. There will


                                                                                             20
                                                                             APPENDIX III
be continuous monitoring of the implementation and outcomes of these new controls
and disciplinary systems within the Judiciary. The timeframe for completion is
October 30, 2011.

During the implementation of TCP II, the Program will support the development and
implementation of a system for tracking seizures related to customs and tax fraud.
This system will enable Customs and USAID/Paraguay to track statistics on
outcomes, identify potential bottlenecks and take steps that will allow Customs to
increase its effectiveness of enforcement actions. The timeframe for completion is
October 30, 2011.

   Recommendation No. 5: We recommend that USAID/Paraguay, in coordination
   with DETAVE, verify that all maintenance issues and/or manufacturing defects
   have been resolved to put the 10 idle boats costing $357,320 in operation.

We concur with the recommendation.

For the past several months, USAID has been working closely with Customs officials
to resolve the problems encountered with the boats. To date, five of the boats that
were idle are currently working. These five boats had minor mechanical problems
and required no-cost repairs. The other five boats require repairs that will incur costs
which will be assumed by Customs. We expect all boats to be functional by
September 30, 2009.

   Recommendation No. 6: We recommend that USAID/Paraguay ensure that
   DETAVE develops and implements an action plan for maintaining and using the
   boats.

We concur with the recommendation.

USAID/Paraguay is currently working with Customs to develop an action plan for the
maintenance and use of the boats. As a result of these discussions, Customs has
already contracted Yamaha’s local dealer (the source of most of the outboard
engines) to provide the recommended maintenance, some of which has already
been performed. USAID expects to have the maintenance and use plan in place by
September 30, 2009.

   Recommendation No. 7: We recommend that USAID/Paraguay formalize a
   procedure to conduct periodic end-use checks for commodities purchased under
   the program.

We concur with the recommendation.

USAID/Paraguay will formalize existing procedures to conduct end-use checks on
commodities purchased under the program. These procedures will include quarterly
site visits conducted by the designated USAID activity manager. Any deficiency or
problem detected in the use of the commodities will be reflected in the site visit
report. These deficiencies will be brought to the attention of the implementing
partners and the appropriate GOP office or Ministry for corrective action. We expect
these procedures to be formalized by the beginning of TPII activities, and will start to
be utilized at the end of the first quarter of program implementation.


                                                                                           21
                                                                             APPENDIX III

   Recommendation No. 8: We recommend that USAID/Paraguay, in coordination
   with its partners, budget for and schedule an independent security assessment of
   the identification and passport system as soon as possible.

We concur with the recommendation.

An IT security assessment on the current ID software and networking systems was
carried out under the Threshold Program in 2008. The report of this assessment was
presented to the ID Department’s Chief Officer and his technical staff. The report was
also taken as an input to outline the hardware and software security elements of the new
IT systems to be implemented by the Threshold Program. The assessment was
performed independently by a different company than the one in charge of implementing
the new identification and passport system.

The deployment of the new system is scheduled for August 2009. After that, the
subcontractor will provide a one-year warranty. During this period any hardware
malfunction or software bugs will be addressed as part of the warranty. In addition, the
subcontractor will provide an initial eight weeks of onsite support and subsequently eight
additional weeks of online support as part of the terms of the warranty. Once the system
is fully operational and certified by the ID Department, USAID will follow up on the status
of the system, and will encourage the GOP to conduct a new independent security
assessment within a year of the deployment of the system. If funds were to become
available, USAID would seek to financially support this independent security
assessment.




                                                                                         22
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
